                     Closeout of OIG 90-3122   (B ~ O -   19
This case came to OIG on March 19, 1490 from a program officer
                  'inm    who was' receiving complaints from two
                 same proposal. They had found approximately ten
sentences in the proposal to be the same or nearly the same as
sentences appearing in two articles that
                           the proposer
                          ) of

OIG wrote to the subject asking for any information he would like
to provide.   His reply did not appear to clear up the matter
completly, and the case was deferred to the subject's institution
for a preliminary inquiry.
The institution conducted an inquiry and formal investigation and
reported the results to OIG.    They found that the subject was
careless in his use of language in citations and unclear
regarding the fine points of citation. Without questioning the
subject's honesty as a researcher, the institution took remedial
action to ensure the adequacy of citations and quotations
employed in the future.
OIG believes that the plagiarism in this case is relatively
minor, since it occurs in the parts of the proposal that discuss
prior research rather than in those parts that represent the
researcher's plan for his own research. Hence the measures taken
by the institution adequately meet the requirements of this case,
and nothing further needs to be done.     The interested parties
will be informed that the matter is now closed.




Donald E. Buzzelli
September 7, 1990
